TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Some Taxpayer Responses to
                         Math Error Adjustments Were Not
                          Worked Timely and Accurately



                                            July 7, 2011

                              Reference Number: 2011-40-059




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


SOME TAXPAYER RESPONSES TO                            Our review of 260 taxpayer responses worked
MATH ERROR ADJUSTMENTS WERE                           by the IRS between January 1 and July 23,
NOT WORKED TIMELY AND                                 2010, showed 104 of the 260 responses were
ACCURATELY                                            not worked timely. TIGTA estimated that 12,232
                                                      taxpayer responses may not have been timely
                                                      resolved during the period January 1 to July 23,
Highlights                                            2010.
                                                      In addition, TIGTA found that 43 of the
Final Report issued on July 7, 2011                   260 responses reviewed were not worked
                                                      accurately. TIGTA estimated that
Highlights of Reference Number: 2011-40-059           17,627 taxpayers may not have had their
to the Internal Revenue Service Commissioner          responses resolved accurately during the period
for the Wage and Investment Division.                 January 1 to July 23, 2010. In addition, TIGTA
                                                      estimates inaccuracies could result in
IMPACT ON TAXPAYERS                                   approximately $39.5 million in lost revenue to
The Internal Revenue Service (IRS) has the            the Federal Government and approximately
authority to adjust tax returns to correct math       $29.2 million in tax benefits that taxpayers will
errors without performing an audit. When the          not receive over the next five years.
IRS makes math error adjustments to a                 WHAT TIGTA RECOMMENDED
taxpayer’s tax return, the IRS sends a notice.
Although the IRS provides taxpayers with the          TIGTA recommended that the Commissioner,
ability to dispute adjustments made to their tax      Wage and Investment Division, develop a
returns, improvements are needed to ensure            process to monitor timeliness of working
responses are worked timely and accurately.           responses to math error adjustments, prioritize
                                                      the working of written responses relating to
WHY TIGTA DID THE AUDIT                               Earned Income Tax Credit math error
During the period January 1 to July 23, 2010,         adjustments, and reinforce to Accounts
the IRS issued approximately 8.6 million math         Management function assistors the need to
error notices. A total of 133,186 (1.6 percent)       thoroughly and accurately work responses to
taxpayers responded to the IRS disputing the          math error adjustments.
adjustments made to their tax return.                 The IRS did not agree with our
Delays in addressing taxpayers’ disputes of           recommendations to develop a process to
math error adjustments could result in taxpayers      monitor the timeliness of working responses to
not timely receiving tax benefits to which they       math error adjustments and prioritize the
are entitled or in a loss of revenue to the Federal   working of Earned Income Tax Credit
Government. Our overall objective was to              recertification responses. Management agreed
determine whether the IRS is accurately and           to reinforce the need to thoroughly and
timely resolving individual taxpayer responses to     accurately work responses to math error
math error adjustments.                               adjustments.

WHAT TIGTA FOUND                                      As stated in our report, no processes were in
                                                      place to monitor the timeliness of math error
Most (98.4 percent) of the approximately              notice responses at the time of our review.
8.6 million math error notices were agreed to by      Because math error authority allows the IRS to
the taxpayer. However, our review identified          adjust a claim prior to an examination, expedited
that some responses in which taxpayers                resolution is needed for these cases.
disagreed with the math error notices were not
worked timely or accurately.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               July 7, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Some Taxpayer Responses to Math Error
                              Adjustments Were Not Worked Timely and Accurately
                              (Audit # 201040049)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is accurately and timely resolving individual taxpayer responses to math error adjustments.
 This audit is included in the Treasury Inspector General for Tax Administration Fiscal
 Year 2011 Annual Audit Plan and addresses the major management challenge of Providing
 Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                             Some Taxpayer Responses to Math Error Adjustments
                                  Were Not Worked Timely and Accurately




                                             Table of Contents

Background .............................................................................................. Page 1

Results of Review..................................................................................... Page 2
         Some Taxpayer Responses to Math Error Notices
         Are Not Worked Timely ...................................................................... Page 3
                  Recommendation 1: .................................................................... Page 5

                  Recommendation 2: .................................................................... Page 6

         Some Taxpayer Responses to Math Error Notices
         Are Not Worked Accurately ......................................................................... Page 7
                  Recommendation 3: .................................................................... Page 9


Appendices
         Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
         Appendix II – Major Contributors to This Report ........................................ Page 13
         Appendix III – Report Distribution List ....................................................... Page 14
         Appendix IV – Outcome Measures............................................................... Page 15
         Appendix V – Process to Resolve Responses to Math Error Notices........... Page 23
         Appendix VI – Glossary of Terms ................................................................ Page 24
         Appendix VII – Management’s Response to the Draft Report ..................... Page 25
        Some Taxpayer Responses to Math Error Adjustments
             Were Not Worked Timely and Accurately




                   Abbreviations

AMS          Accounts Management System
CIS          Correspondence Imaging System
EITC         Earned Income Tax Credit
IMF          Individual Master File
IDRS         Integrated Data Retrieval System
IRTF         Individual Return Transaction File
IRS          Internal Revenue Service
SSN          Social Security Number
TC           Transaction Code
TIGTA        Treasury Inspector General for Tax Administration
                         Some Taxpayer Responses to Math Error Adjustments
                              Were Not Worked Timely and Accurately




                                           Background

Math or clerical errors (referred to as math errors) include arithmetic type errors, missing or
incorrect Social Security Numbers (SSN), missing documentation, and claims for tax credits
above the allowable amounts. Internal Revenue Code
Section 6213(b) (1) gives the Internal Revenue Service
                                                                For Processing Year 2010, there
(IRS) the authority to adjust tax returns to correct math       were more than 400 math error
errors without performing an audit. Math error                   conditions that could result in
adjustments can be either positive or negative. We             the IRS making an adjustment to
identified more than 9.4 million individual income tax              a taxpayer’s tax return.
returns processed during the period January 1 to
December 24, 2010, that required a math error adjustment. Figure 1 shows the volume of tax
returns with math error adjustments and the resulting effect to the taxpayer.
     Figure 1: Volume of Tax Returns With Math Error Adjustments Processed
                      From January 1 to December 24, 2010

  Tax Returns With Math          Dollar Value of Math Error
                                                                   Effect on Taxpayer’s Tax Liability
    Error Adjustments                   Adjustments

                                                                   Increased taxpayer’s refund and/or
          6.4 million                     $6.16 billion
                                                                   reduced taxpayer’s balance due.

                                                                   Reduced taxpayer’s refund and/or
           3 million                      $9.54 billion
                                                                   increased taxpayer’s balance due.
                                                                   No change to the taxpayer’s refund
           24,099                              $0
                                                                   or balance due.
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the IRS Individual Return
Transaction File (IRTF) for Processing Year 2010.

This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, and in the Accounts Management and Examination functions and the IRS
Campus in Kansas City, Missouri, during the period July 2010 through March 2011. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II. A glossary of terms is included in Appendix VI.

                                                                                                          Page 1
                        Some Taxpayer Responses to Math Error Adjustments
                             Were Not Worked Timely and Accurately




                                    Results of Review

When the IRS makes math error adjustments to a taxpayer’s tax return, it sends a notice,
generally a Computer Paragraph 11 Notice (Balance Due (Over $5.00)) or a Computer Paragraph
12 Notice (Overpayment of $1.00 or More), to the taxpayer explaining the error(s) identified and
the amount of any resulting adjustment(s). The math error notice includes an account statement
                                     showing how the changes affected the tax return and
     More than 98 percent of the     showing the corrected tax return information compared to
    individuals receiving a math     what was reported on the original tax return. In addition,
        error notice between         the math error notice provides both a telephone number
    January 1 and July 23, 2010,     and mailing address for the taxpayer to contact the IRS
    agreed with the adjustments      should he or she question the validity of the adjustments.
       made to their tax returns.
                                         Taxpayers who question the validity of the adjustments are
given 60 calendar days from the date of the notice to respond to the IRS disputing the validity of
the adjustments made to their tax returns. During this 60-day period, the IRS will place a freeze
on the taxpayer’s account to prevent the issuance of the portion of the refund associated with the
error(s) identified or prevent the initiation of collection action resulting from any balance due.
Once a math error adjustment is made, any subsequent action depends on the response from the
taxpayer and can include:
   •    Agreed Response: The taxpayer agrees with the math error adjustments made to his or
        her tax return. This includes taxpayers who do not respond to the IRS notice. The IRS
        removes the freeze from the taxpayer’s account, which will then release any refund or
        initiate collection of a balance due of taxes.
   •    Substantiated Response: The taxpayer disagrees with the math error adjustments and
        either provides the IRS with written correspondence/documentation or information via
        telephone contact supporting his or her disagreement. The IRS agrees with the taxpayer
        based on the information provided and reverses the math error adjustments. The IRS
        removes the freeze from the taxpayer’s account, which will release any refund or initiate
        collection of a balance due of taxes.
   •    Unsubstantiated Response: The taxpayer disagrees with the math error adjustments.
        However, the taxpayer does not provide adequate support for his or her disagreement.
        Generally, the IRS reverses the math error adjustments and places an examination freeze
        on the taxpayer’s account resulting in his or her tax return being referred to the
        Examination function for further review.
Figure 2 provides the volume of taxpayer notice responses the IRS received and worked during
the period January 1 and July 23, 2010.
                                                                                            Page 2
                         Some Taxpayer Responses to Math Error Adjustments
                              Were Not Worked Timely and Accurately



                        Figure 2: Taxpayer Responses to Math Errors
                       Processed Between January 1 and July 23, 2010

                  Math Error Notice/Response              Number of
                                                                               Percentage
                           Volumes                        Taxpayers

                  Total Notices Issued                    8,579,242                100%

                  Taxpayer Agreed                         8,446,956               98.4%

                  Taxpayer Disagreed1                       133,186                 1.6%

                       Substantiated                        128,860               96.8%

                       Unsubstantiated                         4,326                3.2%
                Source: TIGTA analysis of the IRS IRTF for tax returns processed during
                Processing Year 2010.

Although the IRS provides taxpayers with the ability to dispute adjustments made to their tax
return, our review found that improvements are needed to ensure responses are timely and
accurately worked.

Some Taxpayer Responses to Math Error Notices Are Not Worked
Timely
We reviewed statistically valid samples of 2782 taxpayer accounts that had an adjustment made
to the tax return and had a math error between January 1 and July 23, 2010. During our review,
we determined that the adjustments made on 18 of the 278 cases were not the result of a math
error. Therefore, the results of our review were limited to 260 of the 278 cases in which we
verified the adjustments made to the taxpayer’s tax return were the result of a math error. Our
review showed that 104 (40 percent) of the 260 responses were not worked in a timely manner.
The IRS issued an interim letter to the taxpayers in 94 of the 104 cases notifying them that their
cases were still being reviewed. Based on our review, an estimated 12,2323 taxpayer responses
may not have been resolved timely during the period January 1 to July 23, 2010. Figure 3
provides a summary of our review.


1
  This count contains some taxpayer responses that were not related to math error notices. We were unable to
determine the exact number of responses that were not related to a math error based on available IRS data.
2
  We reviewed a separate statistically valid sample for substantiated (132) and unsubstantiated (146) taxpayer
responses. Because the sample of 132 contained 18 taxpayer responses not related to math error notices, our sample
was reduced to 114 substantiated responses. See Appendix I for details of our sample selection.
3
  See Appendix IV for details. The 12,232 is the sum of 8,906 taxpayers who experienced delays in receiving
benefits they were entitled to receive and 3,326 taxpayers who experienced delays in the resolution of their math
error adjustment.
                                                                                                          Page 3
                            Some Taxpayer Responses to Math Error Adjustments
                                 Were Not Worked Timely and Accurately



     Figure 3: Timeliness of the Accounts Management Function’s Resolution of
         Taxpayer Responses Worked Between January 1 and July 23, 2010
                              Number of            Number of          Percentage         Average Days to
                              Responses             Untimely          of Untimely        Resolve Untimely
                               Reviewed            Responses          Responses            Responses4

    Total Responses               260                  104                40%                    62.7

          Substantiated           114                     9               7.9%                   49.8
          Unsubstantiated         146                   95               65.1%                   63.8
Source: TIGTA analysis of a statistical sample of 114 substantiated and 146 unsubstantiated math error
notice responses worked by the Accounts Management function between January 1 and July 23, 2010.

IRS guidelines state that responses to taxpayers disputing math error adjustments are considered
timely worked if the final response is provided to the taxpayer within 30 calendar days from the
taxpayer’s initial telephone call or from the earliest date the IRS received written correspondence
from the taxpayer. In addition, for the purposes of our analysis, we applied the 30-day timeliness
criteria to the unsubstantiated cases (those cases transferred to the Examination function) using
the date the taxpayers were notified that their cases were referred to the Examination function for
further review. Taxpayer responses that were not timely worked resulted from the following:
      •     The IRS does not have a process to monitor the timeliness of the resolution of math
            error responses. Although the function responsible for working these math error
            responses (Accounts Management function) has a process to evaluate the timeliness of its
            overall inventory,5 it cannot specifically determine if responses to math error notices are
            being worked timely. In August 2010, the Accounts Management function created a
            separate inventory code for math error notices. This code could be used to identify math
            error response work in inventory and allow management to monitor the timeliness of
            responses to taxpayers disputing math error adjustments.
      •     The majority of untimely resolved cases we identified involved taxpayers who
            provided written responses. Our review showed that 101 (97 percent) of the 104 cases
            that were not timely resolved involved taxpayers who provided written correspondence to
            the IRS. Delays in working some written correspondence resulted from the time needed
            for the IRS to scan written responses into its Correspondence Imaging System (CIS) prior
            to assigning the response to an Accounts Management function assistor for resolution.
            The IRS has 14 calendar days from the received date of written correspondence to scan

4
  The number of calendar days it took the Accounts Management function to resolve untimely substantiated math
error responses ranged from 39 calendar days to 73 calendar days. The number of days to resolve untimely
unsubstantiated math error responses ranged from 33 calendar days to 199 calendar days.
5
  Accounts Management function inventory includes Amended U.S. Individual Income Tax Returns (Form 1040X),
taxpayer claims for a carryback, refund inquiries, and other general correspondence.
                                                                                                         Page 4
                      Some Taxpayer Responses to Math Error Adjustments
                           Were Not Worked Timely and Accurately



       the taxpayer’s response. This accounts for almost one-half of the 30 calendar days the
       Accounts Management function has to timely respond to the taxpayer.
   •   Responses received by telephone are given priority over written responses. The
       Accounts Management function must allocate its limited resources to balance service to
       taxpayers who contact the IRS by telephone and those who contact the IRS in writing.
       IRS management indicated that taxpayer telephone responses are given priority during
       the filing season because telephone responses are addressed when received. Written
       correspondence is worked daily as resources become available and is generally worked
       on a first-in, first-out basis.
       Although the Accounts Management function generally works its inventory on a first-in,
       first-out basis, it does prioritize certain types of written correspondence for which a delay
       could result in a hardship to the taxpayer. However, written responses to math error
       adjustments relating to the recertification of the Earned Income Tax Credit (EITC) do not
       receive this priority processing. The EITC provides assistance to lower income
       taxpayers. As such, delays in working their cases could result in considerable hardship.
       We found that 81 of the 104 untimely responses involved cases where the EITC was
       denied in math error processing because the Information To Claim Earned Income Credit
       After Disallowance (Form 8862) was not attached to the tax return as required and the
       case was referred to the Examination function for further review.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a process to monitor the timeliness of responses to math error
adjustments and ensure these responses are being worked within the 30 calendar day timeliness
requirement.
       Management’s Response: IRS management disagreed with the recommendation
       stating that while they appreciate the importance of timely responses to math error
       adjustments, they have already taken steps by using interim letters in cases where
       resource constraints prevent it from completing the case in 30 calendar days. As
       indicated above, the IRS complies with Internal Revenue Manual requirements by issuing
       a timely interim letter and, as documented in the audit report, interim letters were issued
       in more than 90 percent of the cases that the IRS was unable to resolve within
       30 calendar days. Accordingly, current reporting processes already track the days to
       closure for all case types within the Accounts Management function.
       Office of Audit Comment: As we reported, our review did not identify any processes
       in place that would allow management to determine if math error responses were being
       worked timely. The IRS did send interim letters to the majority of taxpayers whose cases

                                                                                             Page 5
                          Some Taxpayer Responses to Math Error Adjustments
                               Were Not Worked Timely and Accurately



          were not resolved within 30 calendar days. However, sending an interim letter does not
          resolve the case within the 30-calendar-day goal established by the IRS and included in
          the guidance in effect at the time of our review. An IRS study in January 2010 reported
          that interim letters are not meeting the objectives of timeliness and responsiveness but
          have instead become a vehicle to “buy time” in case processing.6
Recommendation 2: Prioritize the working of written responses relating to EITC
recertification math error adjustments.
          Management’s Response: IRS management disagreed with our recommendation to
          prioritize the working of written responses relating to EITC recertification math error
          adjustments. However, IRS management agreed with the importance of working all
          EITC cases in a timely manner. Taxpayers with certain EITC errors in the past are
          required to comply with statutory recertification requirements. As with other important
          issues, the IRS must balance resources in determining the highest priority cases. As
          reflected, most cases are worked on a first-in, first-out basis. Certain issues, such as
          identity theft and disaster claims, receive priority consideration. The IRS strives to work
          all EITC correspondence on a timely basis, but does not agree that it is appropriate to
          prioritize recertification cases above other EITC work or above other taxpayer work that
          must also be performed on a timely basis.
          Office of Audit Comment: In its response, the IRS acknowledged that certain issues
          receive priority consideration. However, we disagree with the IRS’s assertion that EITC
          recertification cases should not receive priority consideration. The EITC is designed to
          assist lower income taxpayers; i.e., those who can least afford to wait for the IRS to
          resolve their EITC claim. Because math error authority allows the IRS to adjust a claim
          prior to an examination, expedited resolution is needed for these cases.




6
    IRS Taxpayer Communications Taskgroup Interim Report (January 2010).
                                                                                               Page 6
                          Some Taxpayer Responses to Math Error Adjustments
                               Were Not Worked Timely and Accurately



Some Taxpayer Responses to Math Error Notices Are Not Worked
Accurately
Our review of the 260 taxpayer responses worked by the IRS between January 1 and
July 23, 2010, showed that 43 of the 260 responses were not worked accurately. Errors resulted
in the IRS paying $7,988 in erroneous refunds and incorrectly denying $5,894 in tax benefits to
taxpayers.7 We estimate 17,6278 taxpayers may not have had their responses accurately resolved
during the period January 1 to July 23, 2010. Based on the results of our review, inaccuracies in
resolving responses to math error notices could result in approximately $39.5 million in lost
revenue to the Federal Government and approximately $29.2 million in tax benefits that
taxpayers will not receive over the next 5 years. Figure 4 presents the results of our review.
             Figure 4: Accuracy of the Resolution of Math Error Responses
                           From January 1 to July 23, 2010
                             Substantiated                           Unsubstantiated
                                                   Percentage                                 Percentage
                              Responses                                Responses
     Total Responses
                                   114                100.0%                 146               100.0%
     Reviewed
          Resolved
                                    96                 84.2%                 121                82.9%
          Accurately
          Not Resolved
                                    18                 15.8%                  25                17.1%
          Accurately
    Source: TIGTA analysis of a statistical sample of 114 substantiated and 146 unsubstantiated math error
    notice responses worked by the Accounts Management function between January 1 and July 23, 2010.

Inaccuracies resulted from one or more of the following conditions:
    •   Accounts Management function assistors reversed math error adjustments without
        obtaining required support from taxpayers. Accounts Management function assistors
        were inaccurately reversing math error adjustments when working responses involving
        multiple math error adjustments. This resulted in adjustments being reversed even
        though taxpayers did not provide information justifying the reversal of the adjustments




7
  **********************************************1**********************************************
**********1****************************, the statistical validity of the error was not reliable enough to project.
8
  See Appendix IV for details. The 17,627 is the sum of all taxpayers in Appendix IV who were burdened as a result
of an inaccuracy, who received an incorrect monetary benefit, or who had a tax benefit incorrectly denied less
990 taxpayers included in our estimate of taxpayer rights and entitlements who had an error that resulted in taxpayer
burden and the denial of a tax benefit.
                                                                                                           Page 7
                             Some Taxpayer Responses to Math Error Adjustments
                                  Were Not Worked Timely and Accurately



           made. As a result, taxpayers received tax benefits to which they may not have been
           entitled. For example:9
           IRS math error processing identifies a tax return with an incorrect SSN used to claim the
           Child Tax Credit and a tax credit that was claimed for an amount above the allowable
           limit (credit amount limited to $500, taxpayer claims $1,000). Math error adjustments
           result in the IRS increasing the tax by $1,000 for the incorrect SSN and decreasing the
           tax credit by $500. The taxpayer receives a math error notice explaining the adjustments
           made to the tax return. The taxpayer contacts the IRS to dispute the adjustment and
           provides support showing the SSN used on the tax return is correct. However, the
           taxpayer does not provide adequate support for the excess tax credit. The Accounts
           Management function assistor reverses the $1,000 math error adjustment related to the
           SSN and the $500 math error adjustment related to the excess tax credit. However, the
           $500 adjustment for the excess tax credit should not have been reversed because the
           taxpayer provided no support to substantiate the claim for the excess credit.
       •   Accounts Management function assistors erroneously transferred response cases to
           the Examination function as unsubstantiated when sufficient support was provided.
           In some instances, Accounts Management function assistors inaccurately transferred
           response cases to the Examination function even though the taxpayer provided adequate
           support that should have resulted in the adjustments being reversed. As a result,
           taxpayers had their tax returns unnecessarily referred to the Examination function for
           review and their refunds unnecessarily held. For example:
           Taxpayer A received a math error notice stating that the Child and Dependent Care
           Credit had been denied because the required Child and Dependent Care Expenses
           (Form 2441) was not attached to the tax return. Taxpayer A responded to the notice and
           provided the required Form 2441. The information on the Form 2441 supported the
           taxpayer’s claim for the Child and Dependent Care Credit. However, the Accounts
           Management function assistor inappropriately forwarded Taxpayer A’s response to the
           Examination function instead of reversing the math error adjustment based on the
           support the taxpayer provided. As a result, Taxpayer A’s receipt of the additional refund
           related to the Child and Dependent Care Credit was delayed until the math error notice
           response was reviewed in the Examination function.
       •   Accounts Management function assistors did not accurately review all errors
           identified on the responding taxpayer’s tax return. When the IRS identifies a math
           error condition on a tax return, an Error Resolution function tax examiner assigns a code
           that relates to the math error adjustment identified. The math error codes on the tax



9
    All examples used in this report are hypothetical.
                                                                                              Page 8
                     Some Taxpayer Responses to Math Error Adjustments
                          Were Not Worked Timely and Accurately



       returns we reviewed did not always reflect all of the math error conditions on the tax
       return and/or accurately reflect the math error adjustments made on the tax return.
       The IRS is aware that math error codes are not always being accurately assigned by Error
       Resolution function tax examiners. To address this concern, IRS guidelines require
       Accounts Management function assistors who work responses from taxpayers to use the
       assigned math error notice codes only as a reference point when working taxpayer
       responses and remind Accounts Management function assistors to not assume the notice
       codes assigned correctly reflect all math error adjustments made to the responding
       taxpayer’s tax return. Despite these guidelines, Accounts Management function assistors
       incorrectly worked some of the cases we reviewed. For example, we identified instances
       in which Accounts Management function assistors evaluated only the adjustments
       indicated by a math error notice code. Adjustments that did not have a corresponding
       math error notice code were not reviewed as part of the Accounts Management function
       assistor’s decision on whether the taxpayer’s dispute of the math error adjustments was
       substantiated. We are planning to conduct a separate audit that will evaluate the accuracy
       of the math error codes assigned by Error Resolution function tax examiners.
   •   Accounts Management function assistors did not always follow procedures when
       closing unsubstantiated cases. IRS guidelines provide specific steps an Accounts
       Management function assistor must take to ensure an unsubstantiated math error response
       is timely and accurately referred to the Examination function. Accounts Management
       function assistors were not always following the procedures for closing unsubstantiated
       math error responses. As a result, receipt of the response in the Examination function
       was delayed or the IRS’s computer system incorrectly treated the response as
       substantiated. For example:
       **********************************1**********************************
       ********************************************************************
       *********************************************************************
       ***********************************************************************
       *********************************************************************
       ***********************************************************************
       **********************************************************************
       *******************************************************************.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Develop and distribute written communication reinforcing to Accounts
Management function assistors the need to thoroughly and accurately work responses to math


                                                                                           Page 9
                     Some Taxpayer Responses to Math Error Adjustments
                          Were Not Worked Timely and Accurately



error adjustments and the impact on both the IRS and the taxpayer when responses are not
accurately resolved.
       Management’s Response: IRS management agreed with this recommendation.
       Necessary communications will be prepared to reinforce the need for thorough and
       accurate work related to math error adjustments. Communications will include the
       impact to the IRS and the taxpayer when the responses are not accurately resolved.
       Overall Office of Audit Comment: In IRS management’s response to the outcome
       measures in our report, they agreed with our projections but did not agree with the
       associated dollar value. The IRS stated that the dollar value of our outcome measure was
       based on a sample of only eight cases. However, that is not the case. In fact, we
       reviewed a statistically valid sample of 132 substantiated responses to math error notices
       closed between January 1 and July 23, 2010. We used this sample to estimate the number
       of cases with processing inaccuracies and the dollar impact of the inaccuracies we
       identified. The methodology we used to compute our dollar projections was developed
       by a statistician and our projections were subsequently reviewed by the same statistician.




                                                                                         Page 10
                          Some Taxpayer Responses to Math Error Adjustments
                               Were Not Worked Timely and Accurately



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is accurately and timely
resolving individual taxpayer responses to math error adjustments. To accomplish the objective,
we:
I.      Obtained and reviewed the IRS’s guidance for timely and accurately working math error
        responses. In addition, we met with management to identify internal controls.
        A. Evaluated the accuracy and timeliness of the Accounts Management function’s
           actions to resolve taxpayer responses to math error notices. We reviewed statistical
           samples of 260 math error responses worked by the Accounts Management function
           between January 1 and July 23, 2010. We utilized information contained in the IRS
           Individual Master File (IMF), the IRTF, the Accounts Management System (AMS),
           the IDRS, and the CIS to identify and review taxpayer responses to math error
           notices.
        B. Reviewed a statistically valid sample of 1321 of the 130,6162 substantiated math error
           responses we identified. We determined our population of substantiated math error
           responses by selecting all taxpayer accounts containing a Transaction Code (TC) 291
           with Source Code 02 or a TC 290 with Source Code 02 from the IMF processed
           between January 1 and July 23, 2010. We matched these two files to all 2010 tax
           returns we identified from the IRTF with a math error. Because a TC 290 and a
           TC 291 both indicate an adjustment to an original filed tax return, we eliminated any
           tax accounts that contained both a TC 291 and a TC 290 to prevent including these
           cases in our population twice. Our sample was selected using a 20 percent expected
           error rate,3 a 90 percent confidence level, and a ±6 percent precision level.




1
  We reviewed all 132 substantiated responses but found 18 responses were not related to a math error, reducing the
total to 114. The 114 is the number used in the Results of Review section of this report for the substantiated
responses, specifically in Figure 3.
2
  The 130,616 responses represent all taxpayer accounts that had a substantiated math error response processed
between January 2 and July 23, 2010, regardless of when the original tax return or math error adjustment was
processed.
3
  Our expected sample error rate was based on the actual error rate of the timeliness of IRS processing for nonmath
error taxpayer correspondence.
                                                                                                          Page 11
                          Some Taxpayer Responses to Math Error Adjustments
                               Were Not Worked Timely and Accurately



        C. Reviewed a statistically valid sample of 146 of the 5,1114 unsubstantiated math error
           response cases that were referred from the IRS Accounts Management function to the
           IRS Correspondence Examination function. We identified our population by
           selecting all taxpayer accounts with a TC 470 and a Closing Code 94 (taxpayer claim
           is pending for a math error) from the IMF processed between January 1 and July 23,
           2010. Our sample was selected using a 50 percent expected error rate,5 a 90 percent
           confidence level, and a ±7 percent precision level.
        D. Quantified the impact on taxpayers and the IRS by projecting our sample results for
           substantiated and unsubstantiated responses to their respective populations.
Data validation methodology
During this review, we relied on data extracted from the IRS’s IRTF for Processing Year 2010
located on the TIGTA Data Center Warehouse. We also relied on data extracts from the IRS
IMF that were provided by the TIGTA Office of Information Services. Before relying on our
data, we ensured that each file contained the specific data elements we requested. In addition,
we selected a random sample of 10 records from each IRTF extract and 10 records from each
IMF extract. Using the IRS IDRS, we verified the data contained in these sample records
accurately reflected the information contained in the IRS’s computer systems. We also
compared selected data fields for each taxpayer response in our statistical samples to the AMS,
CIS, and IDRS to verify that the data in these fields were accurate. As a result of our testing, we
determined the data used in our review were reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: internal controls prescribed by the IRS’s
Internal Revenue Manual that are used by the Accounts Management function to process
taxpayer replies to math error notices. We evaluated those internal controls by interviewing
management and reviewing policies and procedures. We also conducted tests of IRS actions
taken in response to taxpayer replies to math error notices to ensure the controls identified were
functioning properly.



4
  The 5,111 represents all taxpayer accounts that had an unsubstantiated response to a math error adjustment
processed between January 1 and July 23, 2010, regardless of when the original tax return or math error adjustment
was processed.
5
  Our expected sample error rate was based on the actual error rate of the timeliness of IRS processing of
correspondence received by the Compliance function and our review of a judgmental sample of 21 unsubstantiated
cases.
                                                                                                          Page 12
                    Some Taxpayer Responses to Math Error Adjustments
                         Were Not Worked Timely and Accurately



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Gwendolyn S. Gilboy, Senior Auditor
John L. Hawkins, Senior Auditor
Sandra L. Hinton, Senior Auditor
Jonathan W. Lloyd, Auditor
Ryan C. Powderly, Auditor
Nathan J. Smith, Auditor




                                                                                    Page 13
                    Some Taxpayer Responses to Math Error Adjustments
                         Were Not Worked Timely and Accurately



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 14
                      Some Taxpayer Responses to Math Error Adjustments
                           Were Not Worked Timely and Accurately



                                                                                  Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 8,906 taxpayers who experienced delays in receiving benefits
    to which they were entitled as a result of the IRS not timely working their substantiated
    disputes of math error adjustments during the period January 1 through July 23, 2010 (see
    page 3).

Methodology Used to Measure the Reported Benefit:
We identified 8,579,242 unique tax returns processed between January 1 and July 23, 2010, from
the IRTF that contained 1 or more math error notice codes. We also identified 2,509,683
taxpayer accounts on the IMF in which a TC 290/291 with a Source Code 02 posted to the
taxpayer’s account between January 1 and July 23, 2010. The IRS uses a TC 290/291 with
Source Code 02 to adjust taxpayers’ accounts for substantiated math error responses.
To eliminate as many of the tax adjustments as possible that were not related to math error
responses, we matched the taxpayer accounts identified with a TC 290 or TC 291 Source
Code 02 to the tax returns we identified that had one or more math error notice codes assigned.
As a result of this analysis, 54,666 tax returns had at least 1 math error notice code and a TC 290
Source Code 02 posted to the taxpayer’s account. We also determined that 76,721 returns had at
least 1 math error notice code and a TC 291 Source Code 02 posted to the taxpayer’s account.
We eliminated 771 cases that were included in both the TC 290 and TC 291 populations, which
resulted in 130,616 substantiated math error response cases.
Because the use of a TC 290 and 291 with Source Code 02 is not exclusive to math error
responses, it is possible for both a math error notice code and a TC 290 or TC 291 to post to a
taxpayer’s account where the TC 290/291 was not related to a substantiated math error response.
Because we were unable to identify these cases based on the data available, we assumed these
adjustments related to a math error response when identifying the population of substantiated
math error responses.
We randomly selected and reviewed a statistically valid sample of 132 of the
130,616 substantiated math error responses using a 90 percent confidence level, a ±6 percent
precision, and an expected error rate of 20 percent to determine our sample size.

                                                                                           Page 15
                      Some Taxpayer Responses to Math Error Adjustments
                           Were Not Worked Timely and Accurately



IRS guidelines state responses to taxpayers disputing math error adjustments are timely worked
if the final response is provided to the taxpayer within 30 calendar days from the taxpayer’s
initial telephone call or from the earliest date the IRS received written correspondence from the
taxpayer. For substantiated math error responses, the IRS’s reversal of the disputed math error
adjustments is considered the final response.
We used the AMS, the CIS, and the IDRS to identify the date the taxpayer provided support that
substantiated his or her dispute of the math error adjustments and the date the IRS adjusted the
taxpayer’s account to reverse the disputed math error adjustments for each of our sample cases.
The IRS did not adjust the taxpayer’s account within 30 calendar days of receiving support from
the taxpayer in 9 (6.8 percent) of the 132 cases reviewed. Our review of the 132 substantiated
cases identified 18 cases in which the TC 290/291 was not the result of a taxpayer’s response to a
math error notice. We have included these cases in the projection of our results because they
were representative of our population. However, these cases were excluded when discussing the
results of our review of math error responses in the body of the report.
Based on our review results, we estimate that 8,906 of the 130,616 substantiated taxpayer
responses to math error notices were not worked timely. We are 90 percent confident that the
actual number of substantiated taxpayer responses that were not worked timely is between
4,177 responses and 13,635 responses. The margin of error is ±4,729 taxpayer responses.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 3,326 taxpayers who experienced delays in the resolution of
    their math error adjustments because the IRS did not timely work their unsubstantiated
    disputes of math error adjustments during the period January 1 through July 23, 2010 (see
    page 3).

Methodology Used to Measure the Reported Benefit:
The IRS uses a TC 470 with a Closing Code 94 when a taxpayer’s dispute of a math error
adjustment is identified as unsubstantiated and the case is referred to the Examination function.
We identified 5,111 taxpayer accounts on the IMF that had a TC 470 with Closing Code 94
posted between January 1 and July 23, 2010.
We randomly selected and reviewed a statistically valid sample of 146 of the
5,111 unsubstantiated math error responses. We determined our sample size using a 90 percent
confidence level, a ±7 percent precision, and an expected error rate of 50 percent.
IRS guidelines state responses to taxpayers disputing math error adjustments are timely worked
if the final response is provided to the taxpayer within 30 calendar days from the taxpayer’s
initial telephone call or from the earliest date the IRS received written correspondence from the
taxpayer. For unsubstantiated math error responses, the IRS’s adjustment to refer the case to the

                                                                                           Page 16
                      Some Taxpayer Responses to Math Error Adjustments
                           Were Not Worked Timely and Accurately



Examination function is considered the final response. We used the AMS, the CIS, and the
IDRS to identify the date the taxpayer provided his or her unsubstantiated response to the math
error adjustments, as well as the date the IRS entered the adjustment to refer the case to the
Examination function for each of our sample cases.
The Accounts Management function did not enter the adjustments to refer the cases to the
Examination function within 30 calendar days of receiving the taxpayers’ dispute in
95 (65.1 percent) of the 146 cases. Based on our results, we estimate 3,326 of the
5,111 unsubstantiated math error responses processed between January 1 and July 23, 2010, were
not worked timely. We are 90 percent confident that the actual number of unsubstantiated math
error responses that were not worked timely is between 2,998 responses and 3,654 responses.
The margin of error is ±328 taxpayer responses.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 2,969 taxpayers who were incorrectly advised to file an
    amended return to substantiate their dispute of a math error adjustments during the period
    January 1 through July 23, 2010 (see page 7).

Methodology Used to Measure the Reported Benefit:
We identified 8,579,242 unique tax returns processed between January 1 and July 23, 2010,
from the IRTF that contained 1 or more math error notice codes. We also identified
2,509,683 taxpayer accounts on the IMF in which a TC 290/291 with Source Code 02 posted to
the taxpayer’s account between January 1 and July 23, 2010. The IRS uses TC 290/291 with
Source Code 02 to adjust taxpayers’ accounts for substantiated math error responses.
To eliminate those tax adjustments that were not related to math error responses, we matched the
taxpayer accounts identified with a TC 290 or TC 291 Source Code 02 to the tax returns that had
one or more math error notice codes assigned. As a result of this analysis, we determined
54,666 tax returns had at least 1 math error notice code assigned and a TC 290 Source Code 02
was posted to the taxpayer’s account. We also determined that 76,721 returns had at least 1 math
error notice code assigned and a TC 291 Source Code 02 was posted to the taxpayer’s account.
We eliminated 771 cases that were included in both the TC 290 and TC 291 populations, which
resulted in 130,616 substantiated math error response cases.
Because the use of TC 290 and 291 with Source Code 02 is not exclusive to math error
responses, it is possible for both a math error notice code and a TC 290 or TC 291 to be posted to
a taxpayer’s account and the TC 290 or TC 291 not be related to a substantiated math error
response. Because we were unable to identify these cases based on the data available, we
assumed these adjustments related to a math error response when identifying the population of
substantiated math error responses.


                                                                                          Page 17
                      Some Taxpayer Responses to Math Error Adjustments
                           Were Not Worked Timely and Accurately



We randomly selected and reviewed a statistically valid sample of 132 of the
130,616 substantiated math error responses. We used a 90 percent confidence level, a ±6 percent
precision, and an expected error rate of 20 percent to determine our sample size.
We used the AMS and the CIS to identify specific details of taxpayer responses to the math error
adjustments and actions taken by the Accounts Management function, such as any notes made by
the IRS employee in the Accounts Management function of whether or not the taxpayer’s
response should be identified as an unsubstantiated math error response. We also used the IDRS
to identify the specific details of the adjustments input to refer the taxpayers’ unsubstantiated
math error responses to the Examination function.
The IRS provided incorrect information/advice to taxpayers in 3 (2.3 percent) of the
132 substantiated cases. Our review of the 132 substantiated cases identified 18 cases in which
the TC 290/291 was not the result of a taxpayer’s response to a math error notice. We have
included these cases in the projection of our results because they are representative of our
population. However, these cases were excluded when discussing the results of our review of
math error responses in the body of the report.
Based on our review results, we estimate taxpayers were incorrectly advised in 2,969 of the
130,616 substantiated math error responses processed between January and July 23, 2010. We
are 90 percent confident the actual number of taxpayers who received incorrect advice is
between 172 taxpayers and 5,766 taxpayers. The margin of error is ±2,797 taxpayer responses.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 805 taxpayers who experienced delays in the resolution of their
    disputed math error adjustments because the IRS did not accurately work their disputes
    during the period January 1 through July 23, 2010 (see page 7).

Methodology Used to Measure the Reported Benefit:
The IRS uses a TC 470 with a Closing Code 94 when a taxpayer’s dispute of a math error
adjustment is identified as unsubstantiated and the case is referred to the Examination function.
We identified 5,111 taxpayer accounts on the IMF that had a TC 470 with Closing Code 94 that
was posted between January 1 and July 23, 2010.
We randomly selected and reviewed a statistically valid sample of 146 of the 5,111
unsubstantiated math error responses. We determined our sample size using a 90 percent
confidence level, a ±7 percent precision, and an expected error rate of 50 percent.
We used the AMS and the CIS to identify specific details of taxpayer responses to the math error
adjustments and actions taken by the Accounts Management function, such as any notes made by
the IRS employee in the Accounts Management function of whether or not the taxpayer’s
response should be identified as an unsubstantiated math error response. We also used the IDRS

                                                                                          Page 18
                       Some Taxpayer Responses to Math Error Adjustments
                            Were Not Worked Timely and Accurately



to identify the specific details of the adjustments input to refer the taxpayers’ unsubstantiated
math error responses to the Examination function.
The IRS incorrectly transferred the taxpayer’s response to the Examination function in
23 (15.8 percent) of the 146 unsubstantiated responses we reviewed. As a result, taxpayers had
the resolution of their dispute of the math error adjustments delayed or did not receive their tax
benefits timely. Based on our results, we estimate taxpayers experienced delays in 805 of the
5,111 unsubstantiated cases processed between January 1 and July 23, 2010. We are 90 percent
confident that the actual number of taxpayers who experienced delays is between 554 taxpayers
and 1,056 taxpayers. The margin of error is ±251 taxpayer responses.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $39,521,235 in tax benefits the IRS will incorrectly pay to
    34,635 taxpayers over the next 5 years related to the IRS’s inaccurate resolution of taxpayer
    substantiated math error responses (see page 7).

Methodology Used to Measure the Reported Benefit:
We identified 8,579,242 unique tax returns processed between January 1 and July 23, 2010, from
the IRTF that contained 1 or more math error notice codes. We also identified 2,509,683
taxpayer accounts on the IMF in which a TC 290/291 with Source Code 02 posted to the
taxpayer’s account between January 1 and July 23, 2010. The IRS uses a TC 290/291 with
Source Code 02 to adjust taxpayers’ accounts for substantiated math error responses.
To eliminate those tax adjustments that were not related to math error responses, we matched the
taxpayer accounts identified with a TC 290 or TC 291 Source Code 02 to the tax returns we
identified that had one or more math error notice codes assigned. As a result of this analysis, we
determined 54,666 tax returns had at least 1 math error notice code assigned and a TC 290
Source Code 02 was posted to the taxpayer’s account. We also determined that 76,721 returns
had at least 1 math error notice code assigned and a TC 291 Source Code 02 was posted to the
taxpayer’s account. We eliminated 771 cases that were included in both the TC 290 and TC 291
populations, which resulted in 130,616 substantiated math error response cases.
Because the use of a TC 290/291 with Source Code 02 is not exclusive to math error responses,
it is possible for both a math error notice code and a TC 290 or TC 291 to be posted to a
taxpayer’s account and the TC 290 or TC 291 not be related to the substantiated math error
response. We assumed the adjustments related to a math error response when identifying the
population of substantiated math error responses because the only way to identify the reason for
these adjustments would involve reviewing each taxpayer’s return and account.
We randomly selected a statistically valid sample of 132 cases from the population of
130,616 substantiated math error responses using a confidence level of 90 percent, a


                                                                                             Page 19
                         Some Taxpayer Responses to Math Error Adjustments
                              Were Not Worked Timely and Accurately



precision factor of ±6 percent, and an expected error rate of 20 percent to determine our sample
size.
We used the IDRS to identify the type and dollar amount of the math error adjustments and the
adjustments input by the Accounts Management function in response to the taxpayer’s
substantiated response. We used the AMS and the CIS to identify specific details of taxpayer
responses to the math error adjustments and actions taken by the Accounts Management
function, such as any notes made by the IRS employee in the Accounts Management function of
whether or not the taxpayer’s response should be identified as a substantiated math error
response.
The adjustments made by the IRS in response to the taxpayer’s dispute were inaccurate in
7 (5.3 percent) of the 132 substantiated math error response cases reviewed resulting in the
taxpayers’ refunds being overstated by a total of $7,988. Our review of the 132 substantiated
cases identified 18 cases in which the TC 290/291 was not the result of a taxpayer’s response to a
math error notice. We have included these cases in the projection of our results because they
were representative of our population. However, these cases were excluded when discussing the
results of our review of math error responses in the body of the report.
Based on our review results, we estimate inaccurate resolution of substantiated math error
responses resulted in the IRS incorrectly giving 6,927 taxpayers $7,904,247 in tax benefits to
which they were not entitled between January 1, 2010, and July 23, 2010. We are 90 percent
confident that the actual number of taxpayers is between 2,722 and 11,131 and the amount of tax
benefits incorrectly paid is between $2,553,263 and $14,714,590. We estimate the IRS could
incorrectly pay 34,635 taxpayers $39,521,235 in tax benefits to which they are not entitled over
the next 5 years.
Figure 1 shows the results of our substantiated math error response case review and the
projection analysis for those taxpayers who received more benefits than they were entitled to
because of the inaccurate resolution of their math error response.
                       Figure 1: Projection Analysis – Tax Benefits
                Incorrectly Paid to Taxpayers Due to Inaccurate Resolution

                                      Size            Inaccurate         Dollar Impact (Understated Tax)

 Sample                               132                   7                           $7,988
 Population/Projection              130,616               6,927                       $7,904,247
Source: TIGTA analysis of a statistically valid sample of 132 substantiated math error responses processed
between January 1 and July 23, 2010.




                                                                                                         Page 20
                      Some Taxpayer Responses to Math Error Adjustments
                           Were Not Worked Timely and Accurately



Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; at least $29,161,010 in tax benefits the IRS
    will not pay to 39,580 taxpayers who substantiate their dispute of a math error adjustment
    over the next 5 years because the IRS incorrectly worked their dispute (see page 7).

Methodology Used to Measure the Reported Benefit:
We identified 8,579,242 unique tax returns processed between January 1 and July 23, 2010, from
the IRTF that contained 1 or more math error notice codes. We also identified 2,509,683
taxpayer accounts on the IMF in which a TC 290/291 with Source Code 02 posted to the
taxpayer’s account between January 1 and July 23, 2010. The IRS uses a TC 290/291 with
Source Code 02 to adjust taxpayers’ accounts for substantiated math error responses.
To eliminate those tax adjustments that were not related to math error responses, we matched the
taxpayer accounts identified with a TC 290 or TC 291 Source Code 02 to the tax returns that had
one or more math error notice codes assigned. As a result of this analysis, we determined
54,666 tax returns had at least 1 math error notice code assigned and a TC 290 Source Code 02
was posted to the taxpayer’s account. We also determined that 76,721 returns had at least 1 math
error notice code assigned and a TC 291 Source Code 02 was posted to the taxpayer’s account.
We eliminated 771 cases that were included in both the TC 290 and TC 291 populations, which
resulted in 130,616 substantiated math error response cases.
Because the use of a TC 290/291 with Source Code 02 is not exclusive to math error responses,
it is possible for both a math error notice code and a TC 290 or TC 291 to be posted to a
taxpayer’s account where the TC 290 or TC 291 is not related to a substantiated math error
response. We assumed these adjustments related to a math error response when identifying the
population of substantiated math error responses because the only way to identify the reason for
these adjustments would involve reviewing each taxpayer’s return and account.
We randomly selected a statistically valid sample of 132 cases from the population of
130,616 substantiated math error responses. We used a confidence level of 90 percent, a
precision factor of ±6 percent, and an expected error rate of 20 percent to determine our sample
size.
We used the IDRS to identify the type and dollar amount of the math error adjustments and the
adjustments input by the Accounts Management function in response to the taxpayer’s
substantiated response. We used the AMS and the CIS to identify specific details of taxpayer
responses to the math error adjustments and actions taken by the Accounts Management
function, such as any notes made by the IRS employee in the Accounts Management function of
whether or not the taxpayer’s response should be identified as a substantiated math error
response.



                                                                                          Page 21
                         Some Taxpayer Responses to Math Error Adjustments
                              Were Not Worked Timely and Accurately



We found that adjustments made to taxpayers’ accounts who disputed a math error adjustment
were inaccurate in 8 (6.1 percent) of the 132 substantiated responses, resulting in refunds being
understated or balance due amounts being overstated by a total of $5,894. Our review of the
132 substantiated cases identified 18 cases in which the TC 290/ 291 was not the result of a
taxpayer’s response to a math error notice. We have included these cases in the projection of our
results; however, these cases were excluded when discussing the results of our review of math
error responses in the body of the report.
Based on our review results, we estimate the inaccurate resolution of substantiated math error
responses resulted in 7,916 taxpayers receiving $5,832,202 less in tax benefits than they were
entitled to receive between January 1 and July 23, 2010. We are 90 percent confident that the
actual number of taxpayers is between 3,440 and 12,393 and the amount of tax benefits not paid
is between $1,385,490 and $11,916,370. We estimate 39,580 taxpayers will not receive tax
benefits totaling $29,161,010 over the next 5 years.
Figure 2 shows the results of our substantiated math error response case review and the
projection analysis for those taxpayers who did not receive the benefits to which they were
entitled due to the inaccurate resolution.
                        Figure 2: Projection Analysis – Tax Benefits
                       Denied Taxpayers Due to Inaccurate Resolution

                                   Size            Inaccurate            Dollar Impact (Overstated Tax)

 Sample                            132                   8                              $5,894
 Population/Projection           130,616              7,916                          $5,832,202
Source: TIGTA analysis of a statistically valid sample of 132 substantiated math error responses processed
between January 1 and July 23, 2010.




                                                                                                         Page 22
           Some Taxpayer Responses to Math Error Adjustments
                Were Not Worked Timely and Accurately



                                                     Appendix V

Process to Resolve Responses to Math Error Notices




                                                           Page 23
                     Some Taxpayer Responses to Math Error Adjustments
                          Were Not Worked Timely and Accurately



                                                                               Appendix VI

                               Glossary of Terms

Accounts Management System (AMS) – a web-based resource that brings various IRS systems
together in one common view to share taxpayer information and integrates access to many tools
used by IRS employees.
Computer Paragraph Notice – the most common form of communication with the taxpayer
regarding their account to notify them of any change to the taxpayer’s original return or in
response to taxpayer correspondence.
Correspondence Imaging System (CIS) – an inventory system used to scan written
correspondence in order to convert paper documentation to digital images for the IRS to work
cases in a paperless environment.
Data Center Warehouse – provides data and data access services through the TIGTA Intranet.
Filing Season – the period from January 1 through April 15 when most individual income tax
returns are filed.
Individual Master File (IMF) – contains information about taxpayers filing individual income
tax returns and related documents.
Individual Return Transaction File (IRTF) – contains data transcribed from initial input of the
original individual tax returns during return processing.
Integrated Data Retrieval System (IDRS) – a computer system with the capability to
instantaneously retrieve or update stored taxpayers’ account information.
Internal Revenue Manual (IRM) – provides procedural guidance for the IRS’s operations.
IRS Campus – the data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Processing Year – the year beginning January 1 in which the IRS processes the tax returns for
the prior calendar year. For example, the IRS processed Tax Year 2010 tax returns beginning in
January 2011.
Transaction Code (TC) – a three-digit code used to identify actions being taken to a taxpayer’s
account on various IRS systems.




                                                                                        Page 24
      Some Taxpayer Responses to Math Error Adjustments
           Were Not Worked Timely and Accurately



                                               Appendix VII

Management’s Response to the Draft Report




                                                      Page 25
Some Taxpayer Responses to Math Error Adjustments
     Were Not Worked Timely and Accurately




                                                Page 26
Some Taxpayer Responses to Math Error Adjustments
     Were Not Worked Timely and Accurately




                                                Page 27
Some Taxpayer Responses to Math Error Adjustments
     Were Not Worked Timely and Accurately




                                                Page 28
